No. 20-__

 

 

IN THE

Supreme Court of the United States

DIRK WILKE, in his official capacity as interim
State Health Officer of North Dakota, et al.,

Petitioners,
Vv.

PHARMACEUTICAL CARE MANAGEMENT ASSOCIATION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,919 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 13, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
